Final Assessment Report 07-02, November 27, 2006, “WebTrust Assessment of GPO’s
Certification Authority – Attestation Report”


GPO implemented a Public Key Infrastructure (PKI) to support its “born digital and
published to the web” methodology to meet GPO customer expectations that documents
are official and authentic. The GPO PKI also directly supports GPO’s mission related to
electronic information dissemination and e-government. The GPO PKI recently became
cross-certified with the Federal Bridge Certificate Authority (FBCA) whose certification
provisions require that the GPO PKI undergo a compliance review. To satisfy this
compliance requirement, the GPO Office of Inspector General (OIG) tasked an
independent public accounting (IPA) firm to conduct a WebTrust assessment of its
Certification Authority (CA). The assessment was conducted in accordance with the
American Institute of Certified Public Accountants (AICPA) “WebTrust Principles and
Criteria for Certificate Authorities.” The assessment represents an evaluation of whether
GPO management’s assertions related to the adequacy and effectiveness of controls over
its CA operations is fairly stated based on underlying principles and evaluation criteria.

A pre-assessment was performed to identify gaps and deficiencies between the current
GPO PKI environment and the required criteria of the WebTrust Program for CA.
During the final WebTrust phase, controls were tested to gather support for an opinion
regarding compliance with applicable WebTrust principles and criteria for certification.
As a result of work performed in the final WebTrust phase, the IPA issued an Attestation
Report which expresses their opinion that GPO management’s assertions regarding its
CA operations is fairly stated in all material respects. This opinion is contained in the
final report, which is considered sensitive.
